                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                     Audit of International Boundary 

                                   And Water Commission Construction

                                    Contract With Inuit Services, Inc.,

                                       Using Funds Provided by the

                                  American Recovery and Reinvestment Act


                                          Report Number AUD/CG-12-10, November 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office of Inspector General

                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the International Boundary and Water Commission' s (IBWC)
compliance with Federal, Department, and American Recovery and Reinvestment Act (Recovery
Act) acquisition management practices. The report is based on interviews with employees and
offIcials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

       OIG contracted with the independent public accountant Cotton & Company, LLP, to
perform this audit. The contract required that Cotton perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Cotton' s report is included.

       Cotton identified three areas in which improvements could be made: complying with all
relevant Federal laws and regulations, including those of the Recovery Act; having adequate
processes and systems in place to collect information required to be reported by the Recovery
Act; and providing complete and accurate information as required by the Recovery Act.

        OIG evaluated the nature, extent, and timing of Cotton's work; monitored progress
throughout the audit; reviewed Cotton's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. OIG concurs with Cotton' s findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. ~IG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                       Harold W. Geisel
                                       Deputy Inspector General
                                       UNCLASSIFIED





Audit of International Boundary and Water Commission Construction Contract With
Inuit Services, Inc., Using Funds Provided by the American Recovery and Reinvestment Act


Office of Inspector General
U.S. Department of State
Washington, D.C.

Cotton & Company, LLP (referred to as “we” in this letter), has performed an audit of the
International Boundary and Water Commission’s (IBWC) construction contract with Inuit
Services, Inc., using funds provided by the American Recovery and Reinvestment Act (Recovery
Act). We evaluated Inuit’s compliance with relevant Federal laws and regulations, including
those of the Recovery Act; adequacy of processes and systems in place to collect information
required to be reported by the Recovery Act; and accuracy and completeness of required report
submissions. This performance audit, performed under Contract No. S-AQM-PD-04-D-0035,
was designed to meet the objective identified in the report section titled “Objective” and further
defined in Appendix A, “Scope and Methodology.”

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.

Cotton & Company LLP




Michael W. Gillespie, CPA, CFE
Partner


Alexandria, Virginia
November 2011




                                       UNCLASSIFIED

                              UNCLASSIFIED




Acronyms

Department     Department of State
HUBZone        Historically Underutilized Business Zone Empowerment Contracting
               Program
IBWC           International Boundary and Water Commission
Inuit          Inuit Services, Inc.
OFCCP          Office of Federal Contract Compliance Programs
OIG            Office of Inspector General
P&J            Phillips and Jordan, Inc.
Recovery Act   American Recovery and Reinvestment Act of 2009




                              UNCLASSIFIED

                                    UNCLASSIFIED




                                  TABLE OF CONTENTS

Section                                                                         Page
Executive Summary                                                                   1
Background                                                                          1
Objective                                                                           2
Results of Audit                                                                    2
  Finding A. Contractor Certified Incorrect Subcontractor Payments                  2

  Finding B. Contractor Did Not Comply With All Contract Terms and Conditions       4

  Finding C. Contractor Did Not Obtain Required Subcontractor Certifications        5

  Finding D. Contractor Did Not Have Buy American Act Controls in Place             6


List of Recommendations                                                             7
Appendices
A Scope and Methodology                                                             8

B International Boundary and Water Commission Response                             10





                                    UNCLASSIFIED

                                        UNCLASSIFIED


                                     Executive Summary
       The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this report), to conduct
performance audits of contractors that received funding provided by the American Recovery and
Reinvestment Act of 2009 (Recovery Act) from the International Boundary and Water
Commission (IBWC). The audit objective was to determine whether contractors that received
Recovery Act funds from IBWC complied with relevant Federal laws and regulations, including
those of the Recovery Act; had adequate processes and systems in place to collect information
required to be reported by the Recovery Act; and submitted required reports that were accurate
and complete. One contractor selected for review was Inuit Services, Inc. (Inuit).

        Inuit was awarded a contract on July 24, 2009, to furnish all labor, materials, and
equipment for constructing improvements for the North Banker Floodway Levee Improvements
Project in Hidalgo County, Texas. Inuit invoiced and was paid $943,291 to date for work
completed by May 2010. As of January 12, 2011, IBWC and Inuit were negotiating outstanding
change order requests.

        Inuit did not comply with all relevant Federal laws and regulations, including those of the
Recovery Act. Specifically, it did not have proper controls for reporting subcontractor payments,
obtain all subcontractor certifications, comply with affirmative action requirements, implement
Buy American Act controls, or submit accurate and complete Recovery Act reports.

       We made recommendations for IBWC to ensure that the contractor implements
procedures to comply with Federal affirmative action requirements, obtain certifications from its
subcontractor performing on these contracts, and establish procedures for complying with Buy
American Act requirements.

        In its response to the draft report (see Appendix B), IBWC agreed with three of the
report’s four recommendations. For the one recommendation (No. 1) that IBWC took exception
to, IBWC provided information that resulted in OIG’s closing the recommendation without any
additional action required.

                                          Background
        IBWC is an international body composed of the United States Section and the Mexican
Section. Each section is administered independently of the other. The United States Section is a
Federal Government agency and has its headquarters in El Paso, Texas. IBWC operates under
the foreign policy guidance of the Department of State. The mission of IBWC is to apply the
rights and obligations that the Governments of the United States and Mexico assume under the
numerous boundary and water treaties and related agreements. IBWC’s obligations include
construction, operation, and maintenance of levees and floodway projects along the Rio Grande
River.

        The Recovery Act provided $220 million to IBWC for the Rio Grande Flood Control
Project to evaluate needed repairs and/or rehabilitation of deficient portions of flood control

                                             1
                                        UNCLASSIFIED
                                            UNCLASSIFIED


systems, with all funds required to be obligated by September 30, 2010. Repairs and
rehabilitation entail raising levee segments to original design levels and reconstructing segments
where structural integrity has been compromised. The project consists of two primary phases:
the Pre-construction Phase, which involves geotechnical investigations, environmental
documentation, and design, and the Construction Phase, which involves project construction.
IBWC projects may continue to expend Recovery Act funds for contracts as long as those funds
were obligated by September 30, 2010.

        IBWC awarded Contract No. IBM09C0014 for $950,997 to Inuit on July 24, 2009. The
acquisition was a HUBZone Set-Aside1 for the associated small-business size standard. The
contract was to furnish all labor, materials, and equipment for constructing improvements on the
North Banker Floodway Levee Improvement Project in Hidalgo County, Texas. Inuit invoiced
and was paid $943,291 as of June 16, 2010, for work completed. As of January 12, 2011, IBWC
and Inuit were negotiating outstanding change order requests.

                                                Objective
        The audit objective was to determine whether contractors that received Recovery Act
funds from IBWC complied with relevant Federal laws and regulations, including those of the
Recovery Act; had adequate processes and systems in place to collect information required to be
reported by the Recovery Act; and submitted required reports that were accurate and complete.

                                           Results of Audit
        Inuit did not comply with all relevant Federal laws and regulations, including those of the
Recovery Act. Specifically, it did not have proper controls for reporting subcontractor payments,
obtain all subcontractor certifications, comply with affirmative action requirements, implement
Buy American Act controls, or submit accurate and complete Recovery Act reports.

Finding A. Contractor Certified Incorrect Subcontractor Payments
       The contractor Inuit inaccurately reported amounts paid to its subcontractor on pay
estimate certifications to IBWC. IBWC Form 245, Pay Estimate, requires contractors to sign
and certify the following:

        2. Payments to subcontractors and suppliers have been made from previous
        payments received under the Contract, and timely payments will be made from the
        proceeds of the payment covered by this certification, in accordance with
        subcontract agreements and the requirements of Chapter 39 of Title 31, U.S
        Code.


1
  The Historically Underutilized Business Zone Empowerment Contracting Program (HUBZone) was enacted into
law as part of the Small Business Reauthorization Act of 1997. The program encourages economic development in
HUBZones through the establishment of preferences.



                                                 2
                                            UNCLASSIFIED
                                              UNCLASSIFIED

        3. This request for progress payment does not include any amounts which the
        Prime Contractor intends to withhold or retain from a subcontractor or supplier
        in accordance with the terms and conditions of the subcontract.

         Specifically, Inuit certified to IBWC on its pay estimates for January through May 2010
that it had paid more to its subcontractor Phillips & Jordan, Inc. (P&J), than it did and also that
P&J had invoiced less than it did. As summarized in Table 1, for the May 2010 pay estimate,
Inuit certified that it had paid P&J $722,690.10, although it had actually paid $540,329.55, or a
difference of $182,360.55. After amounts were paid to P&J in June, the difference was
$92,377.33 between the amounts reported as paid and the amounts actually dispersed to the
subcontractor. Information from P&J showed that P&J had billed and provided a Miller Act
Notice 2 to Inuit for $1,076,283.87 based on a number of outstanding change orders.

    Table 1. Differences Between Contractor and Subcontractor Records
                                                                  Contractor         Subcontractor 

                                                                 Inuit Records       P&J Records 

     Original Contract Amount                                      $837,353.88         $837,353.88
     Contract Modification Requests                               $(129,918.49)        $238,929.99
     Contract Value With Requested Modifications                   $707,435.39        $1,076,283.87
     Total Paid to Subcontractor (P&J)                             $630,312.77         $630,312.77
     Certified as Paid on IBWC Forms 154                           $722,690.10
     Difference                                                    $(92,377.33)
     Amount Billed on Subcontractor (P&J) Invoices 1-
     8                                                           $1,076,283.87
     Certified as Billed to Date on Forms 154                      $733,633.62
     Difference                                                    $342,650.25          $445,971.10

        Inuit attributed the differences in amounts reported as paid to IBWC to mathematical
errors on a spreadsheet. Inuit issued contract reduction task orders to P&J totaling $129,918.49
that P&J did not sign. P&J submitted change order requests totaling $238,929.99 to Inuit that
Inuit did not approve. Inuit representatives stated that they are awaiting decisions on change
orders submitted to IBWC before approving any of P&J’s change order requests.

        Inuit should have been more diligent in accounting for subcontractor costs and making
accurate subcontractor payments in a timely manner. Unresolved issues between Inuit and P&J
create the potential for liens to be placed on the project or other contingent liabilities.

        Recommendation 1. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract No. IBM09C0014 ensure
        that decisions on all outstanding change orders are communicated to the contractor Inuit
        Services, Inc., in a timely manner and that Inuit pays the subcontractor for amounts owed,
        including interest if applicable, and that Inuit obtains all required lien waivers.

2
 A Miller Act Notice is a claim filed under the Miller Act, as amended (40 U.S.C. §§ 3131-3134), “Public
Buildings, Property, and Works”) by a subcontractor to the prime contractor against the prime contractor’s payment
bond for labor and or materials supplied on a Federal construction project.

                                                   3
                                              UNCLASSIFIED
                                              UNCLASSIFIED




           IBWC Response: IBWC stated that it “[took] exception to the recommendation” in that
           it had “communicated to the prime contractor in a timely manner all changes relative to
           this contract.” IBWC further stated that it did not recognize the change order transactions
           between the subcontractor and the contractor, since IBWC did “not have privity of
           subcontract” but that it appeared that “both prime [contractor] and subcontractor had a
           separate set of payment records not otherwise accessible or recognized by [IBWC].”
           IBWC further stated that it recognizes change orders it initiated and that there were “no
           outstanding USIBWC change orders with Inuit.” In addition, IBWC also stated:

                   Although Inuit has one unsupportable claim before USIBWC, it
                   would be seriously improper for [IBWC] to direct Inuit to pay the
                   subcontractor amounts owed on an otherwise unjustified claim.”
                   IBWC additionally stated, “There is no contract requirement to
                   obtain lien waivers on [U.S. Government] construction contracts.
                   Primes are responsible to obtain lien waivers from their
                   [subcontractors] in order to protect themselves, NOT the [U.S.
                   Government]. The inclusion of a Payment Bond assures protection
                   of the [subcontractors] on contractual matters between themselves
                   and the prime contractor.

           OIG Analysis: Based on the the clarifications provided by IBWC in its response, OIG
           considers the recommendation closed, and no further action is required.

Finding B. Contractor Did Not Comply With All Contract Terms and
Conditions

        The contractor Inuit did not comply with all terms and conditions of its Recovery Act
construction contract. It did not have controls in place and did not perform any actions to ensure
compliance with affirmative action requirements. The FAR3 requires contractors to take
“affirmative action to ensure equal employment opportunity” and further requires contractor
compliance to be “based upon its effort to achieve maximum results from its actions.” The FAR4
further requires the efforts to be fully documented and affirmative action steps to be
implemented. Inuit representatives stated that they were unaware of these requirements.

           Recommendation 2. We recommend that the International Boundary and Water
           Commission (IBWC) contracting officer for IBWC Contract No. IBM09C0014 require
           the contractor Inuit Services, Inc., to implement procedures to ensure that it complies
           with Federal Acquisition Regulation affirmative action requirements.

           IBWC Response: IBWC stated that since it “did not receive any complaints alleging
           violation of the requirement of affirmative action, . . . the [Office of Federal Contract


3
    FAR 52.222-27(g), “Affirmative Action Compliance Requirements for Construction.” (Feb. 1999)
4
    Ibid.

                                                   4
                                              UNCLASSIFIED
                                             UNCLASSIFIED


        Compliance Programs]5 regional office was not required to be involved in this particular
        contract.” IBWC further stated that since the contract had been “listed as final” on the
        Web site FederalReporting.gov, IBWC will “submit a reminder notice” for Inuit “to
        document and implement affirmative action procedures in future federal contracts.”

        OIG Analysis: OIG considers the recommendation resolved. The recommendation can
        be closed pending OIG’s review and acceptance of documentation showing that Inuit has
        taken action to implement affirmative action procedures for future Federal contracts.

Finding C. Contractor Did Not Obtain Required Subcontractor
Certifications
        The contractor Inuit did not obtain all required certifications from its subcontractor P&J.
Inuit did not obtain a certification at the time of award confirming that “the subcontractor, or its
principals, is or is not debarred, suspended, or proposed for debarment by the Federal
Government” in accordance with the FAR.6 Inuit representatives stated that they were not
aware of the FAR requirement to obtain this certification.

        The failure to obtain required forms and certifications could result in subcontractors’
being unaware of applicable FAR clauses and/or of subcontracts being awarded to companies
that have been debarred, suspended, or proposed for debarment. We were able to verify that the
subcontractor was not included in the Excluded Parties List System, an electronic Web-based
system that identifies those parties excluded from receiving Federal contracts.

        Recommendation 3. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract No. IBM090014 require that
        the contractor Inuit Services, Inc., obtain the required certification from its subcontractor
        confirming that Phillips & Jordan, Inc., or its principals are not debarred, suspended, or
        proposed for debarment.

        IBWC Response: IBWC stated that although the work is completed and the contracting
        officer had already verified that the subcontractor was not debarred, suspended, or
        proposed for debarment, it would request that Inuit provide the certification before
        August 30, 2011.

        OIG Analysis: OIG considers the recommendation resolved. The recommendation can
        be closed pending OIG’s review and acceptance of Inuit’s certification showing that the
        subcontractor is not debarred, suspended, or proposed for debarment.




5
  The Office of Federal Contract Compliance Programs (OFCCP), which is part of the U.S. Department of Labor, is

responsible for ensuring that employers doing business with the U.S. Government comply with the laws and 

regulations requiring nondiscrimination.

6
  FAR 52.209-6(b), “Protecting the Government’s Interest When Subcontracting With Contractors Debarred, 

Suspended, or Proposed for Debarment.” (Sept. 2006)


                                                  5
                                             UNCLASSIFIED
                                           UNCLASSIFIED



Finding D. Contractor Did Not Have Buy American Act Controls in Place
        The contractor Inuit did not have policies and procedures in place to ensure that all
construction materials used on the construction project were produced in the United States. The
FAR7 defines “construction material” as “an article, material, or supply brought to the
construction site” by the contractor or subcontractor “for incorporation into the building or
work.” The FAR8 requires “unless an exception applies, that all iron, steel, and other
manufactured goods used as construction material in the project” be produced in the United
States for Recovery Act-funded projects. This clause also implements the Buy American Act9
by providing a preference for unmanufactured domestic construction material.

        Inuit’s subcontractor P&J purchased construction materials, and Inuit personnel relied on
the subcontractor to have procedures in place to ensure compliance with the requirements.
Without procedures, a contractor and/or a subcontractor could be in violation of the Buy
American Act, for which corrective actions can include removing and replacing the improperly
purchased foreign-manufactured goods, reducing the amount of the award, or even withholding
future funds. We were able to verify that materials used during construction were produced in
the United States.

        Recommendation 4. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract No. IBM09C0014 require
        the contractor Inuit Services, Inc., to establish procedures to ensure that materials
        purchased for American Recovery and Reinvestment Act construction projects are in
        compliance with the Buy American Act.

        IBWC Response: IBWC stated that although the work had been completed and the
        contracting officer had verified that all installed material met the requirements of the Buy
        American Act to ensure payment to the contractor, it would request that Inuit certify
        compliance with the act on or before August 30, 2011.

        OIG Analysis: OIG considers the recommendation resolved. The recommendation can
        be closed pending OIG’s review and acceptance of the contractor’s certification of
        compliance with the Buy American Act.




7
  FAR 52.225-21(a), “Required Use of American Iron, Steel, and Other Manufactured Goods–Buy American Act–

Construction Materials.” 

8
  FAR 52.225-21(b)(1)(i)-(b)(1)(ii). 

9
  41 U.S.C. §§ 10a-10d.



                                                6
                                           UNCLASSIFIED
                                        UNCLASSIFIED



                                 List of Recommendations 

Recommendation 1. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM09C0014 ensure that decisions on all
outstanding change orders are communicated to Inuit Services, Inc., in a timely manner and that
Inuit pays the subcontractor for amounts owed, including interest if applicable, and that Inuit
obtains all required lien waivers.

Recommendation 2. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM09C0014 require the contractor Inuit
Services, Inc., to implement procedures to ensure that it complies with Federal Acquisition
Regulation affirmative action requirements.

Recommendation 3. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM090014 require that the contractor Inuit
Services, Inc., obtain the required certification from its subcontractor confirming that Phillips &
Jordan, Inc., or its principals are not debarred, suspended, or proposed for debarment.

Recommendation 4. We recommend that the International Boundary Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM09C0014 require the contractor Inuit
Services, Inc., to establish procedures to ensure that materials purchased for American Recovery
and Reinvestment Act construction projects are in compliance with the Buy American Act.




                                             7
                                        UNCLASSIFIED
                                             UNCLASSIFIED



                                                                                                 Appendix A

                                       Scope and Methodology
        The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this appendix), to conduct
performance audits of contractors that received American Recovery and Reinvestment Act
(Recovery Act) funds from the International Boundary and Water Commission (IBWC). One of
the contractors selected for review was Inuit Services, Inc. (Inuit), in Hidalgo County, Texas.
The audit included Recovery Act funds expended between November 2009 and June 30, 2010,
with fieldwork conducted in September 2010.

        We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on audit objectives.

     We discussed tentative results of this audit with Inuit officials during fieldwork and with
IBWC officials on January 12, 2011.

        To meet our audit objectives, we used the following methodology:

        	 Reviewed documentation available on the Internet for Inuit and its subcontractor
           Phillips & Jordan, Inc. (P&J), to evaluate Inuit and its subcontractor’s eligibility to
           perform on U.S. Government contracts and validate the entity status of the
           organizations.

        	 Selected and tested a sample of Recovery Act reports on the Web site
           FederalReporting.gov to determine whether information reported was accurate and
           supported.

        	 Determined whether Inuit had established and functioning processes to ensure
           compliance with Buy American Act requirements.

        	 Selected and tested a sample of Inuit- and P&J-certified payrolls to verify compliance
           with Davis-Bacon Act1 and Copeland Act2 requirements and to verify that processes
           were in place to validate employment eligibility of those individuals performing on
           the contract.




1
  The Davis-Bacon Act requires Federal contractors to pay prevailing wages, as defined by the Wage and Hour
Division of the U.S. Department of Labor on Federally funded or assisted construction projects.
2
  The Copeland “Anti-Kickback” Act prohibits Federal contractors or subcontractors engaged in building
construction or repair from inducing an employee to give up compensation.

                                                  8 
                                             UNCLASSIFIED 
                                       UNCLASSIFIED



       	 Reviewed and evaluated the subcontract executed by Inuit to ensure inclusion of
          proper clauses, receipt of debarment certifications, notification made to IBWC of
          active subcontracts, and timely payments.

       	 Evaluated whether Inuit and its subcontractor had proper programs in place to ensure
          compliance with code of business ethics, equal employment opportunity, and
          affirmative action requirements.

Review of Internal Controls

       Based on our review of Inuit’s controls to ensure Inuit and subcontractor compliance with
contractual and regulatory requirements, we found that Inuit

    	 Did not have appropriate controls established to ensure compliance with contractual and
       regulatory requirements.
     Did not have controls in place to ensure compliance with affirmative action requirements.
     Did not have a process in place to obtain subcontractor certifications regarding debarment
       status.
     Had not implemented controls to ensure that construction materials met Buy American
       Act requirements.
     Did not have appropriate controls established to submit accurate Recovery Act reports.

        We believe that implementation of the recommendations contained in the report will
improve controls over ensuring compliance with required laws and regulations and accurate
reporting of Recovery Act spending to the public.
 
Use of Computer-Processed Data

         We used payroll files, job cost data, and other financial reports from Inuit’s systems to
test the accuracy of its reporting on FederalReporting.gov. We also validated expenditures listed
in IBWC’s budgetary and billing systems to ensure accuracy of reporting on the Web site. We
found no unexplained discrepancies in expenditure data reported but did find some inaccuracies
identified in data reported on the FederalReporting.gov Web site. These errors were the result of
Inuit’s misunderstanding of reporting requirements or a lack of controls to detect mathematical
errors and were not caused by automated data system issues.




                                            9 
                                       UNCLASSIFIED 
                                    UNCLASSIFIED



                                                                                        Appendix B


                   INTERNATIONAL BOUNDARY AND WATER COMMISSION
                             UNITED STATES AND MEXICO

                                        July 29, 2011




    Un~ed Stales Departmenl of State and the Broadcasting Board 01 Governors
    OffICE! of InspectOr General
    Attn; Evelyn R Klemstine, Assistanllnspector Geoerallor Audits
    2201 C , Street. N,W .
    Washington , D.C. 20520.0306



    Subject OIG Aud~ of International Boundary and Water Commission Construction
    Contract with Inu~ Services, Inc.

    Dear Ms. Klemsline:

    We are pleased to provide you the attached responses to the find ings and
    recommendations shown in the draft alid~ report entitled Aud~ of Intemational Boundary
    and Water Commission Construction Contract with Inu~ Services, IrIC., using Funds
    provided by the American Recovery and Reinvestment Act Draft Report dated June.
    2011 .

    We note that improvements have already been made In the USIBWC Acquisition
    Division in response to the recommendations provided in the alid~ report. and specific
    responses to each finding and recommendation are provided.


                                           Sincerely,
                                                                                     
 
 
 
                                         1    W(Jj
                                       -+"" Commissioner
                                            Edward Drusina, P.E.

 
 
    Attachment As Stated
    CC. O. Forti, C. Parker
      The Commons Buoldng C, Suote tOO . 4171 N Mesa Street . Et PIISO. Te." 79902·1441
                 (915) 832-<1100 . Fax: (915) 832-<1190 . hltpllwww ibwc gov
                                                                        




                                         10
 
                                    UNCLASSIFIED 
                                        UNCLASSIFIED





    Thank you for \he copy of your raport dated June 2011 ,         we   greatty appreciate the
    opportunity to respond to the report.

    The USIBWC generally agrees wrth all of the OIG recommendatioo1s . and each
    recommendation and suggestion that was noted in the report is addressed below:

    OIG recommendations and USIBWC response:

       1. Recommendation 1. We recommend that the USIBWC contracting offICer for
          IBWC Contract no. tBM09COO14 ensure that decisions on al' outstanding change
          orders are communicated 10 the conll"actor Inuit Services. Inc. in a timely manner
          and that Inuit pays the subcontractors for amounts owed . including interest if
          applicable, and that Inuit obtains all required lien waivers.

          Response: Th is offICe takes exception to the recommendation . The USIBWC
          has communicated 10 the prime contractor in a timely manner all chan-ges relative
          10 this contract.. The change order ll"ansactions between P&.l (subcontractor)
          and Inuit (Prime) are not recognized by this office since we do not have privity of
          subcontract but ~ does appear thai boIh prime and subcontractor had a separate
          set of payment records not otherwise accessible or recognized by this offICe. We
          do recognlre change orders initiated by the USIBWC and there are no
          outstanding UStBWC change orders with Inuit.             Although Inu~ has one
          unsuppoftable daim before the USIBWC. H would be seriously improper fOf this
          office to direct Inu~ to pay the subcontradOf amounts owed on an otherwise
          unjustified daim. There is no contract requiremeotlo obtain lien waivers on
          Govt construction contracts. Primes are responsible 10 obtain lien waivers from
          their subs in order to protect themselves. NOT Itle govemment. The inclusion of
          a Payment Bond assures protection of the subs on contractual matters between
          themsetves and the pRne contractOf .

       2. Recommendation 2: We recommend that the USIBWC mntracting officer for
          IBM09COOI4 require \he prme contractor to implement procedures to ensure
          that it complies with FAR affinnativa action requirements.
                                                                            
 
          Response: This office did not receive any complaints alleging violation of the
          requirements of affinnative ection . Therefore, the OFCCP regional offICe was not
          required to be involved in this particular contract. Since the contract is now listed
          as final in Federal Reporting this office will submit a reminder notice 10 Inuit that it
          document and implement affinnatiYe action procedures in Mure fedefal
          contracts.
       3. Recommendation 3: We recommend that the USIBWC conll"acting officer fa(
          IBWC Contract No. IBM09COO14 require that the contractor Inuit Services, Inc.
          obIain the required additional certifICation from its subcontractor confinning thai
          Phillips & Jordan or ~s principals are not debarred,  suspended. or Pfoposed for
          debarment.

                                                  ,

                                             11
 
                                        UNCLASSIFIED
 
                                     UNCLASSIFIED





       Response: Although the wor1l is completed and the CO had already previously
       verified Phillips & Jordan was not debarred, suspended or proposed for
       debarment. this office will request Inuit provide such certificaHon on or before
       Aug 30, 2011 .

   4. RlICOITIIT1erldation 4: We recommend that the USIBWC contracting offICer for
      contract IBMOIICOOt4 require Inuit Services, Inc. to establish procedures to
      ensure that matlllials purcllased for ARRA constl\lction projects are in
      compliance with the Buy American Act.

      Response: Although the work is complete<! and the COR had verifoed all
      installed material met the requirements of Buy American in order to assure
      payment to the contractor, this offICe will request tnuit certify compliance with Buy
      American Act 00 or before Aug 30, 2011 .

Tha nk you aga in for the opportunity to respond to this draft report aflO' please advise us
of any fotlow-up questions, cornmefltS , or concerns aboul this responsaletter.

(b) (6)




                                                                        




                                             ,

                                          12
 
                                     UNCLASSIFIED
 
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

